HHS/OIG, Audit - "Review of Washington States Disproportionate Share Hospital Program," (A-10-01-00001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Washington States Disproportionate Share Hospital Program,"
(A-10-01-00001)
October 25, 2002
Complete Text of Report is available in PDF format
(1.31 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Washington made Medicaid
disproportionate share hospital (DSH) payments in excess of hospital-specific
limits and that were not in accordance with the approved state plan. Specifically,
the state paid $43.9 million (federal share $23.1 million) in excess of hospital
specific limits, and $0.4 million (federal share $0.2 million) to six hospitals
not eligible for some DSH programs. This problem occurred because the state
did not reconcile DSH payments to actual costs, used billed charge amounts (instead
of actual costs) in some calculations, and included unallowable bad debt amounts
in its limits calculations. Also, the state did not review hospital eligibility
for all DSH programs on an annual basis. We recommended financial adjustments
totaling $23.3 million (federal share). We also recommended procedural improvements
intended to strengthen the states management controls.